No. 19-______

In The
Supreme Court of the United States

JOSEPH A. CARAMADRE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals for the First Circuit

PETITION FOR A WRIT OF CERTIORARI
JOHN W. MITCHELL, ESQ.
LAW OFFICE OF JOHN W. MITCHELL
Supreme Court Bar # 200159
Attorney for Petitioner
P.O. Box 163
Bedford, New York 10506
(914) 234-6260
lawofficejwm@gmail.com
DICK BAILEY SERVICE, Inc. · 1-800-531-2028

[REPRODUCED ON RECYCLED PAPER]

·

dickbailey.com

i
QUESTIONS PRESENTED
1.
Should a Writ of Habeas Corpus issue to the
United States Court of Appeals for the First Circuit
(“Court of Appeals”) on the grounds that the showing
that Petitioner made before the United States
District Court for the District of Rhode Island
(“District Court”), in support of his motion pursuant
to 28 U.S.C. § 2255 to vacate his conviction and
sentence, satisfied the requirements of Strickland v.
Washington, 466 U.S. 668, 104 S. Ct. 2052 (1984),
Hill v. Lockhart, 474 U.S. 52, 59, 106 S. Ct. 366
(1985) and their progeny, and therefore, that Court
of Appeals erred in denying Petitioner’s motion for a
Certificate of Appealability (“COA”) permitting him
to appeal the District Court’s Decision and Order
denying Petitioner’s motion and denying him a COA.
2.
Should a Writ of Habeas Corpus issue to the
Court of Appeals because that Court erred in failing
to grant Petitioner’s Motion for a COA on the
grounds that in the proceedings below, the District
Court abused its discretion by failing to hold a
hearing pursuant to 28 U.S.C. §2255 (b), even
though Petitioner’s Motion alleged reasonably
specific, non-conclusory facts that, if true, would
have entitled him to relief.
3.
Should a Writ of Habeas Corpus issue to the
Court of Appeals because that Court erred in failing
to grant Petitioner’s Motion for a COA on the
grounds that the District Court did not apply the
proper standard in adjudicating Petitioner’s request
for a COA, because the District Court did not base
its decision upon the standard of “debatability,” but
rather on a full merits analysis, in violation of this

ii
Court’s holding in Buck v. Davis, 137 S. Ct. 759, 773,
197 L. Ed. 2d 1 (2017).

iii
LIST OF PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on
the cover page.
CORPORATE DISCLOSURE STATEMENT
No corporations are involved in this case.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ..................................... i
LIST OF PARTIES TO THE PROCEEDING ........ iii
CORPORATE DISCLOSURE STATEMENT ........ iii
TABLE OF CONTENTS ......................................... iv
TABLE OF AUTHORITIES ................................... vi
APPENDIX INDEX................................................. ix
PETITION FOR A WRIT OF CERTIORARI .......... 1
Opinions Below ................................................... 1
Jurisdiction ......................................................... 1
Constitutional and Statutory Provisions
Involved ............................................................... 1
STATEMENT OF THE CASE ................................. 2
Procedural Background ...................................... 2
Factual Background and Travel ........................ 4
The Evolution and Nature of the
Underlying Criminal Case ................................. 6
The Radhakrishnan Declaration Why
Petitioner’s Co-Defendant’s Testimony
Would
Have
Been
So
Powerfully
Exculpatory ....................................................... 11
The Government Offered No Testimony,
Affidavits or Evidence of Any Kind to
Controvert
the
Sworn
Declarations
Proffered by the Petitioner and/or Mr.
Radhakrishnan ................................................. 17

v
The District Court Did Not Call For or
Conduct a Hearing ............................................ 20
The Memorandum and Order of the
District Court .................................................... 22
Standard for Determining Whether A
Certificate of Appealability Should Issue ........ 24
REASONS FOR GRANTING THE WRIT............. 26
CONCLUSION ....................................................... 27

vi
TABLE OF AUTHORITIES
Cases

Page

Buck v. Davis,
137 S. Ct. 759 (2017) ............................. ii, 5, 24, 25
Caramadre v. United States, 2018 U.S. Dist.
LEXIS 180494 (D. R.I. 2018) ...................... passim
Caramadre v. United States,
136 S. Ct. 2455 (2016) ........................................... 3
Griffith v. United States,
871 F.3d 1321 (11th Cir. 2017) .......................... 21
Henry v. Scully,
918 F. Supp. 693 (S.D.N.Y. 1995) ...................... 24
Hill v. Lockhart,
474 U.S. 52, 106 S. Ct. 366 (1985) .................... i, 5
Hunt v. Blackburn,
128 U.S. 464, 9 S. Ct. 125 (1888) ....................... 19
Lafler v. Cooper,
566 U.S. 156, 132 S. Ct. 1376 (2012) .................. 5
Lee v. United States,
137 S. Ct. 1958 (2017) ......................................... 5
Miller-El v. Cockrell,
537 U.S. 322, 123 S. Ct. 1029 (2003)...... 5, 24, 25
Osuji v. United States, 2014 U.S. Dist.
LEXIS 140984 (W.D.N.C. 2014) ....................... 17
PNY Techs., Inc. v. Samsung Elecs. Co., 2011
U.S. Dist. LEXIS 46500 (D.N.J. 2011) ............... 21
Schulz v. Marshall,
528 F. Supp. 2d 77 (E.D.N.Y. 2007) .................. 23

vii
Shamblen v. United States, 2018 U.S. Dist.
LEXIS 70924 (S.D. W. Va. 2018) ....................... 19
Slack v. McDaniel, 529 U.S. 473,
120 S. Ct. 1595 (2000) .................................... 5, 25
Sparman v. Edwards, 26 F. Supp. 2d 450
(E.D.N.Y. 1996) .................................................. 23
Strickland v. Washington, 466 U.S. 668,
104 S. Ct. 2052 (1984) ......................... i, 20, 25, 26
Tifford v. Wainwright, 588 F.2d 954
(5th Cir. 1979) ................................................... 16
United States v. Caramadre,
957 F. Supp. 2d 160 (D.R.I. 2013) ...................... 2
United States v. Caramadre,
807 F.3d 359 (1st Cir. 2015) ................................ 3
United States v. DiBernardo,
880 F.2d 1216 (11th Cir. 1989) .......................... 16
United States v. Jasin,
292 F. Supp. 2d 670 (E.D. Pa. 2003) ................. 17
United States v. Longmore, 2008 U.S. Dist.
LEXIS 3523 (D. Conn. 2008) ............................... 18
Watts v. United States,
703 F.2d 346 (9th Cir. 1983) ............................... 18
Welch v. United States,
136 S. Ct. 1257 (2016) ........................................... 5
W. Reserve Life Assurance Co. v. Adm Associates,
LLC, 737 F.3d 135 (1st Cir. 2013) ........................ 6
Zafiro v. United States, 506 U.S. 534,
113 S. Ct. 933 (1993) ........................................... 16

viii
Constitutional Provisions, Statutes and Rules:
Fifth Amendment to the United States
Constitution.............................................................. 1
Sixth Amendment to the United States
Constitution.................................................... 1, 4, 23
Supreme Court Rule 13.1 ........................................ 1
Supreme Court Rule 29.4(a) .................................... 1
Fed. R. Crim. P. 11(d)(2)(B) ..................................... 2
28 U.S.C. §1254(1).................................................... 1
28 U.S.C. § 2255 .............................................. passim

ix
APPENDIX INDEX
Page
Decision of the Court of Appeals for the First
Circuit denying motion for a Certificate
of Appealability, Caramadre v. United States,
No. 18-2216, Order (1st Cir. dated
April 18, 2019) ................................................... 1a-2a
Declaration of Raymour Radhakrishnan
submitted to the District Court in support of
Petitioner’s Motion pursuant to 28 U.S.C. §
2255, dated May 9, 2017 ................................. 3a-11a
Declaration
of
Joseph
A.
Caramadre
submitted to the District Court in support of
his Motion pursuant to 28 U.S.C. § 2255, dated
May 12, 2017 ................................................. 12a-16a

1
PETITION FOR A WRIT OF CERTIORARI
_____________________________
The Petitioner, Joseph Caramadre, respectfully
prays that a Writ of Certiorari issue to review the
Judgment of the United States Court of Appeals for
the First Circuit.
OPINIONS BELOW
The Order of the Court of Appeals for the First
Circuit denying Petitioner’s Motion for a Certificate
of Appealability appears at Petitioner’s Appendix
(appendix at pp. 1a-2a). The opinion of the United
States District Court for the District of Rhode Island
denying Petitioner’s Motion pursuant to 28 U.S.C. §
2255 is reported at Caramadre v. United States,
2018 U.S. Dist. LEXIS 180494 (D. R.I. 2018).
JURISDICTION
The jurisdiction of this Court is invoked pursuant
to 28 U.S.C. §1254(1) and Supreme Court Rule 13.1.
Pursuant to Supreme Court Rule 29.4(a), service was
made on the Solicitor General of the United States.
CONSTITUTIONAL PROVISIONS, STATUTES,
RULES and GUIDELINES
The Fifth Amendment to the United States
Constitution provides in relevant part that: “No
person shall be... deprived of life, liberty, or property,
without due process of law.”
The Sixth Amendment to the United States
Constitution provides in relevant part that: “In all
criminal prosecutions, the accused shall enjoy the
right… to have the assistance of counsel for his
defense.”

2
STATEMENT OF THE CASE
Procedural Background
On November 17, 2011, a grand jury
sitting in and for the District of Rhode Island
returned an indictment against the Petitioner,
Joseph
Caramadre,
and
his
co-defendant
Raymour Radhakrishnan. Trial commenced on
November 13, 2012. After four days of trial,
on November 19, 2012, Petitioner and his
co-defendant entered guilty pleas pursuant to a
plea agreement with the United States Attorney’s
Office. On January 10, 2013, Petitioner’s trial
attorneys moved to be relieved as counsel.
On January 11, 2013, Petitioner’s new counsel
moved to “Stay Proceedings to Permit Adjudication
of Motion to Withdraw Plea by Joseph Caramadre.”
On February 28, 2013, prior to sentencing, Petitioner
filed a motion to withdraw his guilty plea pursuant
to Fed. R. Crim. P. 11(d)(2)(B).
Following an evidentiary hearing conducted by
the trial court – in which both of Petitioner’s trial
attorneys testified as witnesses for the government –
on May 20, 2013, the District Court denied
Petitioner’s Motion to Withdraw his Plea from the
bench. (Smith, J.) On August 1, 2013, the District
Court issued a formal Memorandum Decision.
United States v. Caramadre, 957 F. Supp. 2d 160
(D.R.I. 2013).
Petitioner appealed the District Court’s denial of
his motion to withdraw his guilty plea to the United
States Court of Appeals for the First Circuit.
On December 7, 2015, the Court of Appeals affirmed

3
the decision of the District Court. United States v.
Caramadre, 807 F.3d 359 (1st Cir. 2015). A Petition
for Rehearing was denied by the Court of Appeals on
January 12, 2016. A subsequent Petition for a Writ of
Certiorari was denied by this Court on May 23, 2016.
Caramadre v. United States, 136 S. Ct. 2455 (2016).
On May 15, 2017, while Petitioner was
incarcerated at the U.S. Bureau of Prisons facility at
FMC Devens, he filed a timely motion with the
United States District Court for the District of
Rhode Island, pursuant to 28 U.S.C. § 2255, to
vacate his conviction and sentence on ineffective
assistance of counsel grounds, never previously
raised either before the District Court or in his direct
appeal to the Court of Appeals. On June 27, 2017,
the government filed a Memorandum in Opposition
to Petitioner’s Motion. On August 3, 2018, Petitioner
filed a Reply Memorandum. On August 8, 2017,
without obtaining leave of the Court, the
government filed a Sur-Reply Memorandum.
On August 9, 2017, Petitioner filed a motion to be
permitted to respond to the government’s Sur-Reply.
On August 23, the District Court issued a summary
order denying Petitioner’s Motion to Respond to the
government’s Sur-Reply Memorandum.
On October 22, 2018, the District Court
(Smith, J., Chief Judge) issued a Memorandum
and Order denying Petitioner’s Habeas Corpus
Petition. In the Court’s Memorandum and Order,
it held that no hearing was necessary pursuant to
28 U.S.C. §2255 (b) and further denied Petitioner’s
request to issue a Certificate of Appealability.

4
Caramadre v. United States, 2018 U.S. Dist. LEXIS
180494 (D. R.I. 2018).
On December 10, 2018, Petitioner filed a timely
Notice of Appeal to the United States Court of
Appeals for the First Circuit. In conjunction
therewith, Petitioner filed a Motion asking that
Court to issue a COA. On April 18, 2019 the
Court of Appeals denied Petitioner’s Motion for
a Certificate of Appealability and dismissed
Petitioner’s appeal. On June 10, 2019 the Mandate
of the Court of Appeals issued.
Factual Background and Travel
In his habeas corpus petition before the District
Court, Petitioner asserted that his trial counsels’
performance was constitutionally defective because
they; (1) failed to make appropriate pre-trial
inquiries of Petitioner’s co-defendant concerning his
knowledge of, and his willingness to testify
to, critical exculpatory information regarding
Petitioner, and as a consequence thereof;
(2) they failed to move before the District Court for a
severance pursuant, inter alia, to Petitioner’s right
to present a complete defense; all in violation of
Petitioner’s rights guaranteed by the Fifth and Sixth
Amendments to the United States Constitution.
In support of his assertion that his counsels’
performance
was
constitutionally
deficient,
Petitioner made an uncontroverted factual showing
before the District Court that his co-defendant,
Raymour Radhakrishnan, was in possession of
compelling exculpatory information, and further,
that Mr. Radhakrishnan would have been willing to

5
testify to such information in the event that the trial
court would have ordered separate trials.
In addition, in a declaration submitted by
Petitioner in support of his § 2255 motion
(reproduced in the appendix at pp. 12a-16a),
he averred that had he known that his co-defendant
was willing to testify on his behalf and that his
counsel could have moved for a severance on those
grounds, he would not have plead guilty, but rather,
would have gone to trial. Petitioner asserted before
the District Court that his plea was therefore not the
product of a knowing and informed decision, but
rather, was uninformed and involuntary, and that
under the standards established by this Court in
Hill v. Lockhart, supra; Lee v. United States, 137 S.
Ct. 1958 (2017), Lafler v. Cooper, 566 U. S. 156, 132
S. Ct. 1376 (2012) and their progeny, that his
conviction should be vacated as constitutionally
infirm.
Petitioner respectfully asserts that the showing
that he made before the District Court not only
warranted vacature of his conviction, but that the
uncontroverted factual proffers that he made – at
the very least – surely met the threshold for
the issuance of a COA. Welch v. United States,
136 S. Ct. 1257, 1269 (2016), (Thomas, J. dissenting
on other grd’s.), “[the COA] inquiry [is] whether the
movant’s claims... warrant further proceedings - not
whether there is any conceivable basis upon which
the movant could prevail. Courts must ask whether
‘reasonable jurists would find the district court’s
assessment of the constitutional claims debatable.’ ”
Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct.

6
1595 (2000); Miller-El v. Cockrell, 537 U.S. 322,
336-38, 123 S. Ct. 1029 (2003); Buck v. Davis, supra
at 773.
The Evolution and Nature of the
Underlying Criminal Case
Axiomatically, the nature and substance of the
exculpatory evidence that Mr. Radhakrishnan
possessed is a critical component to any merits
analysis of the relevance and probative value of the
factual proffers made by Petitioner in support of his
motion to vacate. Accordingly, and to place into
context why Mr. Radhakrishnan’s testimony would
have been so powerfully exculpatory under the facts
of this particular case, some brief explanation of the
allegations contained in the indictment and the
government’s theory of prosecution is warranted.
At the time of his indictment, Petitioner, Joseph
Caramadre, was a 53-year-old lifelong resident of
Rhode Island, married with three children. He was a
certified public accountant, an attorney, and an
acknowledged expert in the insurance annuities and
bonds fields. After carefully studying the language of
several annuity policies which had come on the
market, Mr. Caramadre was able to discover an
investment opportunity that would not have been
apparent to anyone without Mr. Caramadre’s
expertise (in fact, it would appear that even the
insurance companies who were marketing these
variable annuity products did not realize what they
had created). As Judge Selya, writing the opinion for
the Court of Appeals for the First Circuit in a
companion civil case, W. Reserve Life Assurance Co.
Of Ohio, Plaintiff, Appellant, v. Adm Associates,

7
LLC, 737 F.3d 135, 136 (1st Cir. 2013), explained the
circumstances:
Joseph Caramadre believed that he had found
the Holy Grail of investment strategies: a way to
speculate in high-risk securities while shielding
himself from the adverse effects of losses...
Caramadre figured out that if an individual
named himself (or an entity he controlled) as
both the owner and the beneficiary of a WRL
Freedom Premier III annuity and elected the
death benefit, that individual could engage in
high-risk market speculation without any
downside exposure... if the speculation backfired,
the death benefit guaranteed that he would fare
no worse than a full return of premiums paid
(plus interest)...
Despite the cleverness of Caramadre's scheme,
there was a rub: one had to be sure that the
death benefit would be triggered within a
relatively short time after the risky investments
were made. That timing would ensure that the
owner/beneficiary of the annuity (Caramadre or
his nominee) would receive either the benefit of a
strike-it-rich investment gamble or, at worst, the
return of his bet. Thus, the linchpin of the
scheme was locating and recruiting potential
annuitants whose lifespans were predictably
short: the terminally ill... Although the
[District] court acknowledged that “the
whole point of the [scheme] was to
capitalize on the death benefits,” it
concluded that the “[d]efendants [had]

8
figured out how to game a flaw in the
product.” Id. at 138-139, emphasis added.
Once the insurance companies finally realized the
vulnerability in the variable annuity contracts they
had been marketing, they sent their counsel to speak
with the Office of the U.S. Attorney for the District
of Rhode Island. The insurance company lawyers
complained that what Petitioner was doing – using
terminally-ill individuals as the “measuring-life”
annuitants in these variable annuity policies – must
somehow be illegal or fraudulent. In response,
the government began an aggressive criminal
investigation.
However, the government soon came to realize
that Petitioner was doing nothing wrong by
recruiting terminally-ill individuals to serve as the
measuring life annuitants. He had simply identified
an innovative – and perfectly legal way – to take
advantage of the terms and provisions of these
variable annuities policies that the insurance
companies had created and brought to market.
Realizing that the investment strategy devised by
Petitioner was not illegal, the U.S. Attorney’s Office
focused its attention on the activities involved in
recruiting the terminally-ill individuals who might
potentially serve as an annuitant “measuring life”
for an annuity contract or bond.
After a very lengthy investigation, the
government ultimately returned a multi-count
indictment charging Petitioner Caramadre and
Raymour Radhakrishnan (an employee of Petitioner
Caramadre’s firm Estate Planning Resources,

9
“EPR”). Mr. Radhakrishnan had been the individual
who had been assigned by EPR to meet with each of
the terminally-ill potential annuitants (and/or their
family members) for the purpose of fully explaining
to that person what was involved if he or she elected
to become an annuitant in one of these variable
annuity policies.
Thus the gravamen of the criminal case
ultimately brought by the government was not any
claim that using individuals with predictably short
life spans to serve as the annuitants was somehow
illegal or improper. Rather, the government charged
that misrepresentations and omissions had been
made to various individuals who had been recruited
to serve as annuitants; and/or that other individuals
that Mr. Radhakrishnan had interviewed had
their identities stolen because they had not in
fact fully agreed to serve as an annuitants but
Mr. Radhakrishnan had nonetheless forged their
signatures or got them to sign blank forms.
As the government explained the theory of its
case to the petit jury in its opening statement:
Now, I want to stop here and emphasize this
important point to you. The indictment
does not contend that it is illegal for a
terminally ill person to be the annuitant on
an annuity. The insurance companies wrote the
annuity contracts and the bond issuers set the
terms of the bonds. If they wanted to make sure
that terminally ill people wouldn’t be used, they
could have written that into their contracts.
So it is simply not illegal to use terminally
ill people on annuities or bonds. In fact, even

10
though it may be very uncomfortable or
troubling for you individually, there’s nothing
per se illegal about profiting from another
person's death. But that is not what this case is
about. What is illegal is how the Defendants
went about orchestrating this scheme because,
as I said earlier, it is not a loophole if you have to
lie to get through it.
In this case, the evidence will show that the
Defendants did the following. They repeatedly
lied and deceived terminally ill people in
order to get them to serve as annuitants or
to open brokerage accounts in their names.
They forged the signatures of some of the
terminally ill people on application forms.
They had terminally ill people sign blank
signature pages without explaining to them
what it was that they were signing. They
told the terminally ill people that they were just
giving them a charitable gift intentionally
withholding and concealing from them that
they were using their identify information for
their own profit. (United States v. Caramadre,
11-186-S,
Transcript
of
proceedings
on
November 13, 2012, at pp. 34 & 35, emphasis
supplied).
Thus, as the government’s opening remarks
confirm, the heart of its case rested on what had
purportedly transpired in the meetings and
transactions between Mr. Radhakrishnan and the
prospective measuring life annuitants.

11
The Radhakrishnan Declaration
Why Petitioner’s Co-Defendant’s Testimony
Would Have Been So Powerfully Exculpatory
In support of his habeas petition before the
District Court, Petitioner submitted a declaration
from
his
former
co-defendant,
Raymour
Radhakrishnan (see “Radhakrishnan Declaration,”
appendix at pp. 3a-11a). In his declaration,
Mr. Radhakrishnan set out in detail the specific
exculpatory testimony he would have been willing to
provide at a separate trial. (appendix at pp. 6a-11a,
¶¶ 9-23). Bearing in mind that the sine qua non of
the government’s case was the contention that
Petitioner and Mr. Radhakrishnan had conspired to
make misrepresentations and to steal the identities
of these terminally-ill individuals – what made the
information that could have been supplied by
Mr. Radhakrishnan so exculpating to the Petitioner
– was that, as Radhakrishnan explained in his
declaration, the misrepresentations and omissions
made to these putative annuitants had been made by
Radhakrishnan without the knowledge of Petitioner.
Mr. Radhakrishnan goes on to confirm that there
was no conspiracy or agreement between Petitioner
and him, and that it was he alone who was the one
responsible for the misrepresentations, omissions,
forgeries and/or falsifications that had been made to,
or in connection with, the potential annuitants.
Further, Mr. Radhakrishnan expressly represented
that had a severance been sought and granted by the
trial court, he would have agreed to testify to these
facts at a separate trial. Reproduced below are
several relevant excerpts from the Radhakrishnan
declaration:

12
If I had testified at a separate trial on
Mr. Caramadre’s behalf, I would have provided
the following facts and information:
I would have explained that part of my role was
to actually meet with terminally ill individuals
(and/or their families and representatives) and
explain to them the process and procedures that
were involved in connection with these
applications/transactions. I would have testified
that it was my duty to fully explain everything to
the applicants and to answer any questions that
they or any of their family members or
representatives
had
concerning
these
transactions. (Radhakrishnan Declaration ¶ 12)
I would have testified that Mr. Caramadre
directed me to thoroughly read and explain all of
the documents to the terminally ill individuals,
and if they (or their any of their family members,
representatives or lawyers) had any questions
about the process and/or documents that they
were being asked to sign (and which I could not
explain), that I should tell them that they should
speak to one of our lawyers or to their own
attorney. (Radhakrishnan Declaration ¶ 13)
I would further have testified that I was directed
by Mr. Caramadre, that on each and every
occasion, I was to provide any terminally ill
person
(or
their
family
members
or
representative) a complete explanation of the
transaction, the reason they were receiving
money from Mr. Caramadre’s business, what
obligations, if any, they had in exchange for the
receipt of any funds and what the purpose of the

13
transaction was. (Radhakrishnan Declaration ¶
14)
I would have admitted that there were occasions
where I did not offer a complete explanation of a
transaction to a terminally ill individual (or their
family members or representatives). There were
several reasons why I did not make the required
full explanations. In most instances, it was
because the terminally ill person indicated (by
words or actions) that they simply didn’t want to
sit through a long explanation. They were only
concerned that they were getting several
thousand dollars, that they did not have to do
anything other than agree to serve as an
applicant, and that there were no potential
adverse financial consequences to them or
potentially to their estate (i.e. they would not
incur any tax liability, they did not have to pay
the insurance company any money or premiums,
etc.). In such cases I simply did not see the
purpose in making them sit through a long
explanation that they did not want to hear and
were not interested in. In some instances, I
simply made the unilateral decision that making
a long explanation was unnecessary because of
critical health conditions that would have
prohibited such a long explanation from even
being considered. In my view, these individuals
were being paid several thousand dollars for
doing nothing other than signing on as an
applicant and they were not being asked to
(and did not) bear any risk. (Radhakrishnan
Declaration ¶ 15)

14
I would have testified however that on no
occasion (with one exception) did I ever
make Mr. Caramadre aware that I had failed
or decided it was unnecessary – for whatever
reason – to fully explain to any terminally
ill individual(s) (and/ or to his or her family
and/or representatives) the nature and terms
of the transaction he or she was being
asked to participate in. To my knowledge
Mr. Caramadre was only aware of only one
instance where I had failed to provide any
applicant with a full explanation of the
transaction that I was asking them to become
involved in. (Radhakrishnan Declaration ¶ 16).
I would have testified that when Mr. Caramadre
was made aware that I had not fully explained
the nature and details of the transaction to
Mrs. Larivee, the aunt of Jamie Bradley.
He had Walter Craddock Esq. accompany me
back to meet with Mrs. Larivee and remained
present while I fully explained the transaction to
Mr. Larivee. (Radhakrishnan Declaration ¶ 17).
I would have testified that after accompanying
me for several meetings to ensure that I
was properly explaining the program to all
potential applicants – Mr. Craddock reported to
Mr. Caramadre that he was satisfied that my
explanations were complete and accurate and
that I was performing my job correctly.
(Radhakrishnan Declaration ¶ 18).
I would further have testified that on some
occasions I put down incorrect information
concerning a terminally ill person's financial

15
condition. I did this as a shortcut, because
understanding the process, I did not view the
false/incorrect information as meaningful or
material to the transaction(s). I thought that
the financial condition of the joint tenant
was irrelevant to the application because
Mr. Caramadre was putting in 100% of the
money into the accounts and the joint tenant was
enjoying a risk free, upfront payment.
(Radhakrishnan Declaration ¶ 19).
I would have testified however that, once again,
Mr. Caramadre did not know that I had
done this. The true facts are that Mr. Caramadre
never asked me to put down any false
information on any insurance or bond
applications, option trading agreements, or
forms or documents of any kind. If I utilized or
supplied false/incorrect information, I did not tell
Mr. Caramadre that the information I had
put down was false or incorrect, and to the
best of my knowledge he never knew that.
(Radhakrishnan Declaration ¶ 20).
I would also have testified that there was one
instance where I had established a bond trading
account (over the internet) and then several days
later requested a wire transfer to fund the
account. In a meeting with Mr. Caramadre
regarding the account, I let it be known that the
signature on the account was not valid. When
Mr. Caramadre found out that the signature was
not authentic, he ordered me to immediately
close the account, to make no deposits to the
account and to conduct no transactions through

16
that account. I think the name of the person
involved was Bertha Howard. (Radhakrishnan
Declaration ¶ 23).
It would be difficult to imagine more powerfully
exculpating testimony than that laid out by
Mr. Radhakrishnan in his declaration.
It is respectfully asserted that the uncontroverted
showing made in the Radhakrishnan declaration
met all of the elements required to establish a
defendant’s right to have a separate trial so that
he might have the benefit of a co-defendants
exculpatory testimony, See Zafiro v. United States,
506 U.S. 534, 539, 113 S. Ct. 933 (1993):
“[A] defendant might suffer prejudice if essential
exculpatory evidence that would be available to a
defendant tried alone were unavailable in a joint
trial. Tifford v. Wainwright, 588 F.2d 954 (CA5
1979) (per curiam).” Also see, United States v.
DiBernardo, 880 F.2d 1216, 1228 (11th Cir. 1989):
“[T]o succeed on such a motion, the movant
must demonstrate: (1) a bona fide need for the
co-defendant's testimony; (2) the substance of the
testimony; (3) its exculpatory nature and effect; and
(4) the likelihood that the co-defendant will in fact
testify if the cases are severed.”

17
The Government Offered No Testimony,
Affidavits or Evidence of Any Kind to
Controvert the Sworn Declarations Proffered
by the Petitioner and/or Mr. Radhakrishnan
As remarkable and compelling
presentations made in both the
and the Caramadre declarations
remarkable was the fact that the
contained therein went completely
by the government.

as the factual
Radhakrishnan
were, equally
representations
uncontroverted

In fact, the government made no factual proffers
of any kind in opposition to Petitioner’s habeas
petition. The government offered no affidavit(s), no
testimony, no evidence of any sort, repudiating any
of the factual representations made in the
Radhakrishnan and/or Caramadre declarations.
The government called no witnesses and specifically
did not call either of Petitioner’s two trial lawyers,
even though both attorneys had previously testified
for the government at Petitioner’s plea withdrawal
hearing. In fact, the government specifically argued
to the District Court that no hearing should be held.
See: Osuji v. United States, 2014 U.S. Dist. LEXIS
140984, *21 (W.D.N.C. 2014): “[T]he Government
submitted no affidavits from defense counsel
explaining his trial strategy or his decision not to
pursue plea negotiations and that, without such a
statement, no evidence existed that counsel acted
reasonably or strategically in his representation.”
Accord: United States v. Jasin, 292 F. Supp. 2d 670,
678 (E.D. Pa. 2003): “The Court noted that the
government presented no contrary evidence – the
government produced no affidavit from trial counsel

18
explaining his strategic decision-making process…
[b]ased on the uncontested evidence, the Court
concluded … that trial counsel conducted no pre-trial
investigation and interviewed neither of the
witnesses the defendant asked him to interview nor
the witnesses he actually presented;” Watts v. United
States, 703 F.2d 346, 353 (9th Cir. 1983): “Legal
memorandum and argument are not evidence and
cannot, by themselves, create a factual dispute
sufficient to defeat summary judgment;” United
States v. Longmore, 2008 U.S. Dist. LEXIS 3523, *3
(D. Conn. 2008): “Conclusory, non-particularized
allegations… do not suffice to meet that burden…
[w]hat is required for an evidentiary hearing to
resolve disputed issues of fact is an affidavit based
on personal knowledge.”
In this regard it is appropriate to note that,
without seeking prior approval of the District
Court, and after all the briefing had been
concluded, the government, acting unilaterally, filed
a Sur-Reply Memorandum.1 In that Memorandum,
the government claimed, for the first time, that
it had not interviewed Petitioner’s trial attorneys
because years previously, in connection with
an entirely separate proceeding, the District Court
had directed the government not to interview
Mr. Caramadre’s lawyers. Of course, the habeas
proceeding then pending before the District Court
was a completely different and new proceeding.
It is further noted that a request by habeas counsel to Reply
to the government’s contentions in its Sur-Reply Memorandum
was denied by the District Court by summary order without
opinion.

1

19
And, as this Court recognized over a hundred years
ago, when a litigant puts at issue the conduct of his
counsel, he waives any privilege with respect to
those issues. See, Hunt v. Blackburn, 128 U.S. 464,
470-71, 9 S. Ct. 125 (1888) (“When Mrs. Blackburn
entered upon a line of defense which involved what
transpired between herself and [her lawyer,] she
waived her right to object to his giving his own
account of the matter.”). Indeed, as the Court in
Shamblen v. United States, 2018 U.S. Dist. LEXIS
70924, *6 (S.D. W. Va. 2018) recently pointed out:
“Federal courts have long held that when a ‘habeas
petitioner raises a claim of ineffective assistance of
counsel, he waives the attorney-client privilege as to
all communications with his allegedly ineffective
lawyer....’ [in fact], Rule 502 of the Federal Rules of
Evidence was enacted to explicitly deal with the
effect and extent of a waiver of the attorney-client
privilege in a federal proceeding.”
It is asserted that the government’s Sur-Reply
Memorandum was simply a last-ditch (and
disingenuous) effort to offer some excuse for not
interviewing (or seeking the District Court’s
permission to interview) Petitioner’s trial counsel.
In any event, there is no mention of the
assertions contained in the government’s Sur-Reply
Memorandum (much less reliance shown) by the
District Court in its Memorandum and Order
denying Petitioner’s § 2255 motion.
Thus as the record conforms, the government
merely relied upon its ipse dixit contentions in its
unsworn Memorandum of Law that the petition was

20
somehow “procedurally barred,”2 and then retreated
to the barren, but predictable, defensive claim that
Petitioner had not made the necessary two-part
showing of ineffective assistance and prejudice
required under Strickland v. Washington, supra, and
its progeny.
The District Court Did Not Call For
or Conduct a Hearing
Perhaps equally as remarkable as was the
government’s failure to make any factual proffer in
opposition to Petitioner’s motion to vacate, was the
fact that the District Court failed to call for or
conduct a hearing.
As part of the statutory framework of the federal
habeas statute, Section 2255 (b) expressly provides
that: “Unless the motion and the files and records of
the case conclusively show that the prisoner is
entitled to no relief, the court shall cause notice
thereof to be served upon the United States attorney,
grant a prompt hearing thereon, determine the
issues and make findings of fact and conclusions
of law with respect thereto...” (emphasis supplied).
The decision not to hold a hearing is particularly
perplexing since the District Court was aware that
the government had never interviewed Petitioner’s
trial counsel about the issues presented in the
habeas petition, and therefore the government had
no idea why his trial lawyers had failed to approach
The District Court did not find or hold that the instant
habeas petition was “procedurally barred.” Caramadre v.
United States, 2018 U.S. Dist. LEXIS 180494, supra at
pp. *10 -*15 (D. R.I. 2018).

2

21
Radhakrishnan to ascertain whether he had
exculpatory evidence, or why they had failed to file a
motion to sever on that basis. Indeed, the record was
completely undeveloped as to why trial counsel had
failed to pursue (and act upon) this indisputable
source of highly exculpatory evidence.
Because the government never interviewed
Petitioner’s trial lawyers, it had no knowledge of
why they actually did, or didn’t do, anything. And
since the District Court chose not to call for a
hearing to examine Petitioner trial counsel about
these issues, neither the government nor the Court
had any direct knowledge of Petitioner's trial
counsels’ motives or reasoning (if any). Accordingly,
any conclusions that the Court ultimately reached,
were necessarily based on an unresolved factual
substructure. PNY Techs., Inc. v. Samsung Elecs.
Co., 2011 U.S. Dist. LEXIS 46500, *9 (D.N.J. 2011):
“The... brief rests on the foundation of genuine
disputes of material fact. This Court having found
that this foundation is absent, the remaining
structure collapses of its own weight.”
It is most respectfully asserted that the failure of
the District Court to hold a hearing under the
circumstances presented, constituted an “abuse of
discretion.” As the Court in Griffith v. United States,
871 F.3d 1321, 1329 (11th Cir. 2017) observed:
Under 28 U.S.C. § 2255(b) an evidentiary
hearing must be held on a motion to vacate
“[u]nless the motion and the files and
records of the case conclusively show that
the prisoner is entitled to no relief.” “[I]f the
petitioner alleges facts that, if true, would entitle

22
him to relief, then the district court should order
an evidentiary hearing and rule on the merits of
his claim.” [citations omitted] “[A] petitioner
need only allege — not prove — reasonably
specific, non-conclusory facts that, if true,
would entitle him to relief. If the
allegations
are
not
affirmatively
contradicted by the record and the claims
are not patently frivolous, the district court
is required to hold an evidentiary hearing.”
(emphasis supplied).
The Memorandum and
Order of the District Court
One of the reasons stated by the District
Court in its decision denying Petitioner’s Writ was
that: “Further, there is no evidence in
the record that Caramadre asked trial counsel
to contact Radhakrishnan’s counsel or,
after Radhakrishnan determined to represent
himself, contact him directly, with respect
to testifying for Caramadre.” (Caramadre v.
United States, 2018 U.S. Dist. LEXIS 180494, supra
at pp. *20 [D. R.I. 2018]).
With all due respect, as the declaration of
Petitioner before the District Court explained at
some length, Petitioner had made his counsel well
aware of the nature and kind of exculpatory evidence
that Mr. Radhakrishnan could have provided.
This was not an instance where the lawyers had no
reason to know or believe that Mr. Radhakrishnan
was a source of exculpatory evidence.

23
And, as Petitioner Caramadre’s declaration
confirmed, he fully briefed his lawyers concerning
the
information
that
Mr.
Radhakrishnan
possessed. He specifically told his lawyers that it
was Mr. Radhakrishnan who had conducted
the interviews and meetings with the terminally-ill
individuals and their families and that he
had no knowledge of any malfeasance by
Mr. Radhakrishnan. (“Caramadre Declaration,”
appendix at pp. 14a-15a, ¶ 6). Nothing more was
required of Petitioner. The blame for the failure to
contact and interview Mr. Radhakrishnan (and/or to
petition for a severance) lies at the feet of his
counsel, not Petitioner, and no case has ever held
otherwise.
To the extent that the government and the
District Court suggested that failing to interview
Mr. Radhakrishnan – and/or moving for a severance
based on the need to present exculpatory evidence –
was somehow a “strategic decision” – one might
fairly ask: “And what conceivable rational strategy
could that have been?” See, Sparman v. Edwards,
26 F. Supp. 2d 450, 464 (E.D.N.Y. 1996): “While a
petitioner must overcome ‘the presumption that,
under the circumstances, the challenged action
‘might be considered sound trial strategy...’ [m]erely
labeling [counsel’s] errors ‘strategy’ does
not shield his trial performance from Sixth
Amendment scrutiny.” (emphasis supplied);
Schulz v. Marshall, 528 F. Supp. 2d 77, 97 (E.D.N.Y.
2007): “Levine’s failure to conduct this
interview had no conceivable strategic
justification and was based on no apparent

24
reasonable judgment. Levine’s ‘[duty] was to
investigate, not to make do with whatever
evidence fell into his lap.” (emphasis added);
Henry v. Scully, 918 F. Supp. 693, 715 (S.D.N.Y.
1995) (finding “no possible strategy” that could have
justified defense counsel in allowing co-defendant's
confession to be used against petitioner at trial).
Standard for Determining Whether
A Certificate of Appealability Should Issue
Petitioner/Appellant respectfully asserts that the
District Court did not undertake the proper protocol
and/or apply the controlling standard in determining
whether Petitioner had made a sufficient showing to
warrant a Certificate of Appealability, and therefore
that a COA should have been issued by the Court of
Appeals.
In this regard, as this Court made clear in
Miller-El v. Cockrell, supra at 336, and as reaffirmed
in Buck v. Davis, supra at 773-775, the COA inquiry
is not coextensive with a full merit’s analysis. It is
not an inquiry as to the ultimate likelihood of
success of the habeas petition. Rather the COA
inquiry is far more circumscribed: “[A] COA
determination is a separate proceeding, one distinct
from the underlying merits... [d]eciding the
substance of an appeal in what should only be a
threshold inquiry undermines the concept of a COA.
The question is the debatability of the underlying
constitutional claim, not the resolution of that
debate.” Id. Miller-El, supra at 342, 348. The COA
inquiry is delimited to the single question of
“debatability,” that is; whether “reasonable jurists
could debate whether the petition should have been

25
resolved in a different manner or that the issues
presented were ‘adequate to deserve encouragement
to proceed further.” Slack v. McDaniel, supra at 483484; Buck v. Davis, supra 773; Miller-El, supra at
336.
It is Petitioner’s contention at bar that the only
conclusion that obtains from an examination of the
Memorandum and Order issued by the District
Court, was that the decision to deny a COA was
predicated on a full merits-based evaluation and not
on the more limited standard of whether the
constitutionally based issues Petitioner had raised
(and factually established) were “debatable.”
In this regard, the language of the District Court’s
opinion is probative:
Caramadre has not met his burden of
showing that counsel provided less than
“reasonably effective assistance under
the circumstances then obtaining,” Natanel,
938 F.2d at 310, or a reasonable probability that,
but for counsels’ alleged errors, “the result of
the proceeding would have been different,”
Strickland, 466 U.S. at 694, that is, he would not
have pled guilty but instead would have insisted
on continuing the trial...
[b]ased on the
foregoing, Caramadre’s ineffective assistance of
counsel claim is rejected in its entirety...
[accordingly] this Court hereby finds that
this case is not appropriate for the issuance
of a certificate of appealability (COA) because
Caramadre failed to make a substantial
showing of the denial of a constitutional right
as to any claim, as required by 28 U.S.C.

26
§ 2253(c)(2). (Caramadre v. United States,
2018 U.S. Dist. LEXIS 180494, supra at
pp. *36 - *37 [D. R.I. 2018]).
Most respectfully, the reasoning described by the
District Court as the basis for denying Petitioner’s
application for a COA seems to clearly confirm that
because it was the Court’s view that Petitioner had
not met the dual standards of Strickland, that
consequently, no Certificate of Appealability should
issue. Petitioner asserts that resolving the COA
issue on that basis improperly conflated the
standard for determination of the merits of the
motion to vacate with the different (and lesser)
standard which governs whether a COA should have
been issued.
REASONS FOR GRANTING THE WRIT
This Court should grant certiorari because the
United States Court of Appeals for the First Circuit
has entered a decision that has so far departed from
the accepted and usual course of judicial
proceedings, and that it has sanctioned such a
departure by the United States District Court for the
District of Rhode Island, as to call for the exercise of
this Court’s supervisory powers. The failure of the
Court of Appeals to Order that a COA issue – given
the uncontroverted showing made before the District
Court in support of Petitioner’s Motion to vacate
pursuant to 28 U.S.C. § 2255 – was a manifest
injustice.

27
CONCLUSION
For the reasons set forth above, Petitioner Joseph
Caramadre prays that a Writ of Certiorari issue to
review the Judgment of the United States Court of
Appeals for the First Circuit.
July 9, 2019
Respectfully submitted,
/s/ John W. Mitchell, Esq.
John W. Mitchell, Esq.
Counsel of Record
For the Petitioner, Joseph Caramadre
Supreme Court Bar # 200159
Law Office of John W. Mitchell
P.O. Box 163
Bedford, New York 10506
(914) 234-6260
Email: lawofficejwm@gmail.com

1a

United States Court of Appeals
For the First Circuit
________________________
No. 18-2216
JOSEPH A. CARAMADRE,
Petitioner, Appellant,
v.
UNITED STATES,
Respondent, Appellee.
__________________________
Before
Howard, Chief Judge,
Torruella and Kayatta, Circuit Judges.
______________
JUDGMENT
Entered: April 18, 2019
Petitioner Joseph A. Caramadre seeks a
certificate of appealability in relation to the district
court’s denial of his 28 U.S.C. § 2255 motion. After
careful consideration, we conclude that the district
court’s ultimate denial of Caramadre’s § 2255
claim(s) was neither debatable nor wrong and
that Caramadre “has [not] made a substantial
showing of the denial of a constitutional right.”

2a

Accordingly,
Caramadre’s
application
for
a certificate of appealability is DENIED.
Any remaining pending motions are moot.
The
appeal
is
hereby
TERMINATED.
By the Court:
Maria R. Hamilton, Clerk
cc:
John Wylie Mitchell, Lee H. Vilker,
John P. McAdams, Donald Campbell Lockhart

3a

UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF RHODE ISLAND
JOSEPH A, CARAMADRE
Petitioner,
v.

Dkt. No.
13-CR-150 (M) (PAS)

UNITED STATES OF AMERICA
Respondent.
Raymour Radhakrishnan, pursuant to 28 U.S.C.
S 1746, hereby declares under penalty of perjury
under the laws of the United States of America that
the foregoing statements set forth below are true
and correct.
1.
It is my understanding that my former
co-defendant, Joseph A. Caramadre, is submitting a
Petition for a Writ of Habeas Corpus to this Court.
His counsel has asked me to provide this declaration
describing certain events that took place prior to and
during the trial/plea. I give this declaration of my
own free will, I have not been given, nor promised
any sort of inducement, financial or otherwise, nor
have I been threatened in any way to make this
declaration.

4a

2.
In November of 2011, Mr. Caramadre
and I were charged in a sixty-five count Indictment.
At the time of my arraignment Mr. Olin W.
Thompson, Esq. from the Federal Defender’s Office
was appointed by Magistrate Martin to serve as my
counsel. Mr. Caramadre was intitally represented by
Michael Lepizzera, Esq. and subsequently, Anthony
Traini, Esq. joined Mr. Lepizzera and they served as
co-defense counsel for Mr. Caramadre.
3.
In early August of 2012, after
considerable discussion with my then trial counsel
Mr. Thompson, and following the July 25, 2012
denial of my motion for a severance and separate
trial form Mr. Caramadre, I made the decision that I
wanted to try my own case and that I wanted to
proceed pro se.
4.
On August 7, 2012, the Court conducted
a hearing on my pro se application. During the
course of that hearing, Judge Smith asked me if
there were any undisclosed or ulterior motives
underlying my request to proceed pro se. I assured
Judge Smith that there were no undisclosed or
ulterior motives, that the decision had been mine
and mine alone, and I stand by those representations
to this day. At the conclusion of that hearing, Judge
Smith granted my motion.
5.
Both of Mr. Caramadre’s lawyers,
Mr. Lepizzera and Mr. Traini, were opposed to my
proceeding pro se because they feared that as a
person inexperienced in the procedures and rules

5a

governing criminal trials, I would not only do harm
to my case, but to Mr. Caramadre’s case as well.
In fact, after Judge Smith granted my motion
to proceed pro se, Mr. Caramadre’s counsel made
a motion asking the Court to grant Mr. Caramadre
a severance on the grounds that I would
make errors that would unfairly prejudice
Mr. Caramadre’s rights to a fair trial.
6.
At the conclusion of the hearing that
the Court conducted in connection with my
application to proceed pro se, Judge Smith also made
it clear to Mr. Caramadre’s attorneys that since
I was now acting as my own counsel, they were
free to talk to me directly without violating any
ethical principles. The Court explained that
Mr. Caramadre’s counsel could talk to me and
discuss matters with me, in the same manner that
they would talk to and/or discuss matters of common
interest with any lawyer for any co-defendant.
7.
I have no memory of Mr. Caramadre’s
counsel inquiring or discussing with me what I
might say in my opening statement nor did they
discuss potential common cross examination
strategies or inquire what I intended to ask when
questioning any witness on cross examination.
8.
I do not remember ever being asked
by either attorney whether I would be have
been willing to provide testimony regarding
Mr. Caramadre at a separate trial. Had I been asked
by Mr. Caramadre’s counsel, I would have told

6a

them that I would have agreed to testify for
Mr. Caramadre at a separate trial.
9.
If I had testified at a separate trial on
Mr. Caramadre’s behalf, I would have provided the
following facts and information:
10.
Among
other
background
facts,
I would have explained that I became associated
with Mr. Caramadre in July of 2007. At that time
I was hired by Mr. Caramadre as an office
intern. After the conclusion of my internship,
I eventually became an employee of Mr. Caramadre’s
business, Estate Planning Resources. My position
was account manager and my duties included
managing the firms retail brokerage accounts and
servicing insurance instruments held by the firm’s
clients.
11.
I
would
have
explained
my
understanding of what the Variable Annuities and
the so-called “Death-Put Bond” programs were, how
they operated and why I believed that participation
in such programs was lawful. I would have
explained what my role was supposed to be,
who had trained me with regard to what my
duties and obligations were and what I
was required to do in connection with administering
and processing applications for these programs.
12.
I would have explained that part of my
role was to actually meet with terminally individuals
(and/or their families and representatives) and
explain to them the process and procedures that

7a

were
involved
in
connection
with
these
applications/transactions. I would have testified that
it was my duty to fully explain everything to the
applicants and to answer any questions that they or
any of their family members or representatives had
concerning these transactions.
13.
I
would
have
testified
that
Mr. Caramadre directed me to thoroughly read and
explain all of the documents to the terminally ill
individuals, and if they (or their any of their family
members, representatives or lawyers) had any
questions about the process and/or documents that
they were being asked to sign (and which I could not
explain), that I should tell them they should speak to
one of our lawyers or to their own attorney.
14.
I would further have testified that I was
directed by Mr. Caramadre, that on each and every
occasion, I was to provide any terminally ill person
(or their family members or representative) a
complete explanation of the transaction, the reason
they were receiving money from Mr. Caramadre’s
business, what obligations, if any, they had in
exchange for the receipt of any funds and what the
purpose of the transaction was.
15.
I would have admitted that there
were occasions where I did not offer a complete
explanation of a transaction to a terminally
ill individual (or their family members or
representatives). There were several reasons why I
did not make the required full explanations. In most

8a

instances, it was because the terminally ill person
indicated (by words or actions) that they were simply
didn’t want to sit through a long explanation.
They were only concerned that they were getting
several thousand dollars, that they did not have to
do anything other than agree to serve as an
applicant, and that there were no potential adverse
financial consequences to them or potentially to their
estate (i.e. they would not incur any tax liability,
they did not have to pay the insurance company any
money or premiums, etc.). In such cases I simply did
not see the purpose in making them sit through a
long explanation that they did not want to hear and
were not interested in. In some instances, I simply
made the unilateral decision that making a long
explanation was unnecessary because of critical
heath conditions that would have prohibited such a
long explanation from even being considered. In my
view, these individuals were being paid several
thousand dollars for doing nothing other than
signing on as an applicant and they were not being
asked to (and did not) bear any risk.
16.
I would have testified however that on
no occasion (with one exception) did I ever make
Mr. Caramadre aware that I had failed or decided it
was unnecessary - for whatever reason - to fully
explain to any terminally individual(s) (and/or to his
or her family and/or representatives) the nature and
terms of the transaction he or she was being asked to
participate in. To my knowledge Mr. Caramadre was
only aware of only one instance where I had failed to

9a

provide any application with a full explanation of the
transaction that I was asking them to become
involved in.
17.
I would have testified that when
Mr. Caramadre was made aware that I had not fully
explained the nature and details of the transaction
to Mrs. Larivee, the aunt of Jamie Bradley. He had
Walter Craddock Esq. accompany me back to meet
with Mrs. Larivee and remained present while I
fully explained the transaction to Mr. Larivee.
18.
I would have testified that after
accompanying me for several meetings to ensure
that I was properly explaining the program to all
potential applicants - Mr. Craddock reported to
Mr. Caramadre that he was satisfied that my
explanations were complete and accurate and that I
was performing my job correctly.
19.
I would further have testified that on
some occasions I put down incorrect information
concerning a terminally ill person’s financial
condition. I did this as a shortcut, because
understanding the process, I did not view the
false/incorrect information as meaningful or material
to the transaction(s). I thought that the financial
condition of the joint tenant was irrelevant to the
application because Mr. Caramadre was putting in
100% of the money into the accounts and the joint
tenant was enjoying a risk free, upfront payment.

10a

20.
I would have testified however that,
once again, Mr. Caramadre did not know that
I had done this. The true facts are that
Mr. Caramadre never asked me to put down any
false information on any insurance or bond
applications, option trading agreements, or forms
or documents of any kind. If I utilized or
supplied false/incorrect information. I did not tell
Mr. Caramadre that the information I had put down
was false or incorrect, and to the best of my
knowledge he never knew that.
21.
I would also have testified that on an
application for a variable annuity, Mr. Caramadre
gave me the funds, which I deposited in a checking
account and used to purchase a the annuity. Upon
redeeming the death benefit proceeds, I paid all of
the proceeds back to Mr. Caramadre and prepared a
federal tax 1099 form reflecting that the income
earned on this transaction was attributable
Mr. Caramdre.
22.
I would have testified that on another
occasion I applied for an annuity, and in
that application I used information that ultimately
turned out to be incorrect concerning my finances;
however, I never told Mr. Caramadre that the
information was incorrect and to my knowledge he
never knew those events occurred.

11a

23.
I would also have testified that
there was one instance where I had established a
bond trading account (over the internet) and then
several days later requested a wire transfer to fund
the account. In a meeting with Mr. Caramadre
regarding the account, I let it be known that the
signature on the account was not valid. When
Mr. Caramadre found out that the signature was not
authentic, he ordered me to immediately close the
account, to make no deposits to the account and to
conduct no transactions through that account.
I think the name of the person involved was Bertha
Howard.
Dated: May 9, 2017

12a

UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF RHODE ISLAND
JOSEPH A, CARAMADRE
Petitioner,
v.

Dkt. No.
13-CR-150 (M) (PAS)

UNITED STATES OF AMERICA
Respondent.
Joseph A. Caramadre, pursuant to 28 U.S.C. S
1746, hereby declares under penalty of perjury under
the laws of the United States of America that the
foregoing statements set forth below are trued and
correct.
1.
Pursuant to the Sentence and
Judgment of Conviction imposed by this Court, I am
presently incarcerated at the U.S. Bureau of Prisons
facility, FMC Devens, 42 Patton Road Ayer,
Massachusetts 01432.
2.
I make this declaration in support
of my petition that a Writ of Habeas Corpus
issue, pursuant to 28 U.S.C. § 2255, vacating
my guilty plea and vacating the Judgment
of Conviction entered in the docket of this Court on
December 27, 2013, and further, granting Petitioner
a new trial.

13a

3.
As more fully set forth in the
accompanying Memorandum of Law, it is my
respectful contention that I was deprived of my both
my Fifth Amendment right to due process of law,
including my constitutional right to present a
complete defense (and in particular, the right to
present witnesses in my own defense), as well as my
Sixth Amendment right to the effective assistance of
counsel, as a result of my trial counsels’ failure to
undertake the steps necessary during the period
prior to the commencement of the trial in this case,
to have determined that my co-defendant, Raymour
Radhakrishnan, was willing to provide compelling
exculpatory testimony on my behalf, if he were
tried at a separate trial. The failure of my trial
counsel to pursue this course of inquiry resulted,
inter alia, not only in their failure to discover that
Mr. Radhakrishnan would have agreed to testify at
a separate trial but the nature and substance of
the testimony he would have provided. Had my
counsel taken the steps necessary to discover this
information, I believe that they could have developed
a compelling basis to move to sever my case from
that of my co-defendant’s, so that I might have had
the benefit of the testimony of this witness.
I would most respectfully assert that as the result
of the failure of my attorneys to pursue this
information and to move for a severance on
my behalf, their conduct fell below an objective
standard
of
reasonableness,
and
therefore
constituted constitutionally ineffective assistance.

14a

4.
As a result of my counsels’ failure to
inquire of my co-defendant’s whether he; (1) would
be willing to testify on my behalf at a separate trial,
(2) the substance of such testimony and whether it
would be exculpatory in nature; (3) and their failure
to move for a severance on the basis of my bona fide
need for such testimony – I was induced to enter a
guilty plea. Had I known of the potential availability
for such testimony, I would not have terminated the
trial with a guilty plea, but rather I would have
directed my counsel to petition for a severance, and
proceeded with the trial.
5.
After the indictment was returned,
I was told by my counsel, Messrs. Lepizzera and
Traini, that once Mr. Radhakrishnan had counsel
assigned (as well as subsequently when he obtained
the Court’s permission to represent himself), I was
“banned” from speaking any further with him.
So I never had any opportunity to speak directly to
Mr. Radhakrishnan, to discuss what his position was
with regard to the allegations in the Indictment, how
he intended to defend the charges, whether he
intended to testify, or whether he would have
testified on my behalf at a separate trial.
6.
Although I met with a limited number
of families (mostly people I knew or families that
were referred by attorneys to me directly), my
lawyers were aware that I had not been involved in
any of the transactions that were the basis of the
charges in the Indictment. My lawyers also knew
that it was Mr. Radhakrishnan who had met with

15a

the individuals and family members and who
had prepared the associated paperwork in all of
the charged transactions. My lawyers further
knew that I had no knowledge as to what
Mr. Radhakrishnan had told (or not told) any of
those people. I explained to my lawyers that – with a
single exception – I had no knowledge that any
misrepresentations or omissions had ever been made
to any applicants by Mr. Radhakrishnan or any
information that Mr. Radhakrishnan had recorded
on the forms was not accurate or had been forged.
In the one instance that Mr. Radhakrishnan
did make it known to me that the signature
on a particular account that he had opened
was not authentic, I immediately ordered
Mr. Radhakrishnan to close the account, make no
deposits and conduct no transactions in the account.
7.
Nevertheless,
and
against
this
background and being aware of all of these
circumstances, my counsel inexplicably never
pursued any discussions with Mr. Radhakrishnan as
to whether he would be willing to testify to those
matters if they were able to secure a severance from
the Court.
8.
I have read the declaration that was
executed by Mr. Radhakrishnan on May 8, 2017.
I find it to be accurate in all respects. It fairly
describes the events at issue and confirms that
I was unaware of any misrepresentations, omissions
or forgeries that Mr. Radhakrishnan may have
engaged in. if I had known that Mr. Radhakrishnan

16a

would have provided the exculpatory testimony
outlined in his declaration, I would never have
terminated the trial and I would never have pleaded
guilty. Because I was to aware that this compelling
exculpatory testimony was available and might well
have been secured had a proper motion for a
severance been prosecuted by my counsel, my plea
was not a knowing and/or informed decision and it
was therefore not voluntary.
WHEREFORE, for the foregoing reasons and for
those legal and factual arguments presented in the
accompanying Memorandum of Law, it is
respectfully asserted that a Writ of Habeas Corpus
should issue, pursuant to 28 U.S.C. § 2255, vacating
my plea of guilty, vacating the Judgment of
Conviction and granting a new trial, and such other
relief as to this Court seems just and proper; and in
the event that a Petition for a Writ of Habeas Corpus
is denied, that a Certificate of Appealability issue.
Dated: May 12, 2017
Ayers, Massachusetts

